WAIVER

Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES APR 1 4 2021
OFFICE OF THE CLERK

No.

20-7514

Aimee Johnson

Laura & Lon Yoki; Gayle Koop et al.
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Laura Yoki, Lon•Yoki, and Gayle Koop,

Please check the appropriate box:
.
0

Iam a meniber..Of'the Bar of the Supreme Court of the United States. (Filing Instructions: File a

signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance fii-st.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

Signature:
Date:

Atizeikg/Ts
4/14/20

(Type or print) Name Patrick H. O'Neill Ill
0 Mr.
Firm

Larson King LLP.

Address

30 E Seventh Street

City & State

St. Paul MN

Phone

6513126527

Ms.

0 Mrs.

0 Miss

Zip 55105
Email phoneill@larsonking.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Aimee Johnson, 201 North Hugo Ave. Duluth MN 55811

